OFFICE OF INSPECTOR GENERAL


AUDIT OF
USAID/SOUTHERN AFRICA’S
TUBERCULOSIS ACTIVITIES

AUDIT REPORT NO. 4-674-13-001-P
NOVEMBER 5, 2012




PRETORIA, SOUTH AFRICA
Office of Inspector General


November 5, 2012

MEMORANDUM

TO:       	          USAID/Southern Africa Mission Director, Jeff Borns

FROM: 	              Regional Inspector General/Pretoria, Robert W. Mason /s/

SUBJECT:	            Audit of USAID/Southern Africa’s Tuberculosis Activities (Report No. 4-674-13-
                     001-P)

This memorandum transmits our final report on the subject audit. In finalizing the report, we
considered your comments and included your response in Appendix II.

The final report contains four recommendations to help strengthen USAID/Southern Africa’s
implementation of its tuberculosis activities. We agreed with the mission’s management
decisions on all four recommendations. Please provide the Office of Audit Performance and
Compliance Division with the necessary documentation to achieve final action on
Recommendations 1 through 4.

I want to express my sincere appreciation for the cooperation and courtesy extended to my staff
during the audit.




U.S. Agency for International Development
100 Totius Street
Groenkloof X5, 0181
Pretoria, South Africa
http://oig.usaid.gov/
CONTENTS 

Summary of Results ................................................................................................................... 1 


Audit Findings............................................................................................................................. 4 


     Mission Was Not on Track to Achieve Desired Treatment Success Rate .............................. 4 


     Some Reported Data Did Not Meet Quality Standards ........................................................... 5 


     One Implementing Partner Incorrectly Calculated Results ..................................................... 7 


     Some Facilities Did Not Comply With Infection Control Standards ......................................... 9 


Evaluation of Management Comments................................................................................... 10 


Appendix I—Scope and Methodology .................................................................................... 11 


Appendix II—Management Comments ................................................................................... 14 





Abbreviations

The following abbreviations appear in this report:

CSH             Child Survival and Global Health
DOTS            directly observed treatment, short course
FY              fiscal year
HPCA            Hospice Palliative Care Association of South Africa
NDOH            South Africa’s National Department of Health
PEPFAR          President’s Emergency Plan for AIDS Relief
TB              tuberculosis
TSR             treatment success rate
URC             University Research Co., LLC
WHO             World Health Organization
SUMMARY OF RESULTS 

According to the World Health Organization (WHO), South Africa has more cases of
tuberculosis (TB) than any country except India and China and the highest number of people
living with HIV and AIDS. The two diseases are mutually reinforcing: HIV-positive individuals
are 20 to 40 times more likely to develop TB than are people who do not have HIV because a
weakened immune system cannot keep the TB bacteria in check, and active TB in turn can
accelerate the course of HIV. In 2010, an estimated 60 percent of patients diagnosed with TB in
South Africa were already infected with HIV.1

With programs already targeting HIV and AIDS, USAID/Southern Africa modeled its TB program
for South Africa on the U.S. Government’s global TB strategy for 2009-20142 and redoubled
efforts to integrate TB and HIV services. According to its fiscal year (FY) 2011 performance
plan and report, the mission’s short-term goal was to help strengthen South African health
systems and capacity in several areas critical to a fully functional TB control program, including
controlling infection at service delivery points. The report also reiterated the U.S. Government’s
long-term goal of raising the TB treatment success rate (TSR) to 85 percent. The TSR, the
proportion of patients who complete their entire treatment course for TB, is a key indicator of the
effectiveness of TB programs.

To conduct TB-related activities, USAID/Southern Africa entered into agreements with
13 implementing partners. This audit focused on the three partners listed in the following table.
As of September 30, 2011, the mission had obligated $121.4 million and spent $106.0 million on
the three implementers’ activities.

                           Audited Implementing Partners and Activities

                                                                                          Total Amount
Implementing
                               TB- Related Activities/Goals                    Dates      of Agreement
   Partner
                                                                                            ($ million)

                  Provide technical assistance to increase the quality and
University                                                                   9/28/2009
                  availability of TB services, raise the demand for TB
Research Co.,                                                                    to           64.6
                  treatment, and improve the management of TB support
LLC (URC)                                                                    9/28/2014
                  systems.
                  Provide direct palliative care such as prevention and
Hospice
                  treatment of opportunistic infections, including TB, to
Palliative Care                                                              12/15/2009
                  patients with HIV and their families; conduct risk
Association of                                                                   to           32.7
                  assessments and establish infection control plans
South Africa                                                                 12/30/2012
                  including measures for improving ventilation and making
(HPCA)
                  minor renovations.




1
  Information in this paragraph comes from WHO’s Global Tuberculosis Control 2011; the Lantos-Hyde
United States Government Tuberculosis Strategy, March 24, 2010; the Web site of the Joint United
Nations Programme on HIV/AIDS (www.unaids.org/en/regionscountries/countries/southafrica), and
the WHO South Africa Tuberculosis Profile (www.who.int/tb/data).
2
  Tom Lantos and Henry J. Hyde United States Global Leadership Against HIV/AIDS, Tuberculosis, and
Malaria Reauthorization Act of 2008, Public Law 110-293.

                                                                                                     1
                                                                                         Total Amount
Implementing
                             TB- Related Activities/Goals 	                   Dates      of Agreement
   Partner
                                                                                           ($ million)
                Improve the care and treatment of HIV-positive patients
                with TB by strengthening the TB skills of health            10/1/2007
BroadReach
                professionals, increasing the capacity of facilities in         to            98.2
Healthcare
                testing and identifying TB patients, and strengthening      9/30/2012
                linkages between TB and HIV health-care activities.

The Regional Inspector General/Pretoria conducted this audit to determine whether
USAID/Southern Africa’s TB activities were strengthening systems and capacity in several
areas critical to a fully functioning TB control program, including controlling infection at service
delivery points.3

The audit confirmed that the mission’s activities were strengthening systems and capacity in
several critical areas, including infection control. For example, the mission trained health-care
personnel in TB case management (including management of drug-resistant TB), TB/HIV
collaboration, and infection control. USAID also helped the South African Government develop
patient registers and other data collection tools to manage its TB program effectively and
integrate TB and HIV activities. Other activities were effective in improving laws, policies,
regulations, and guidelines related to improved access and use of health services, including
those for TB patients. To address infection control at service delivery points, one of USAID’s
implementing partners completed risk assessments, developed infection control plans, and
monitored the implementation of infection control practices at supported health facilities.

Furthermore, examination of a statistical sample of files of registered TB patients showed that
health-care personnel generally complied with South African guidelines for screening,
diagnosing, and initiating treatment of TB. Audit testing confirmed, within a 5 percent margin of
error for overstatement with 4 percent precision, the number URC reported of patients
registered at sentinel surveillance sites4 who were diagnosed with TB and started the full course
of treatment. The audit also noted that TB patients were either properly tested for HIV or not
tested for legitimate reasons, such as age or previously known HIV status.

Despite these positive observations, the audit identified the following weaknesses:

	 The mission was not on track to achieve the long-term goal of raising the TSR to 85 percent
   by 2014 (page 4). According to URC’s 2011 annual report, the TSR improved only
   marginally from the previous year, from approximately 72 percent to 74 percent, falling short
   of its FY 2011 goal of 80 percent and USAID’s FY 2011 average TSR of 86 percent in
   priority countries. According to mission officials, the average TSR has improved to more
   than 77 percent as of August 2012.

	 Some reported data did not meet quality standards (page 5). The mission did not disclose
   known data limitations for one indicator, and some treatment data likely were invalid and
   unreliable because of a lack of clerks to validate and enter them.

3
  Although USAID/Southern Africa is a regional mission overseeing programs in several countries, this
audit focuses exclusively on bilateral programs conducted in the Republic of South Africa.
4
  According to WHO, sentinel surveillance sites are institutions such as health-care facilities that are
chosen according to their location (each represents a specific geographic area) and ability to provide
government authorities with high-quality data on the spread of diseases the government monitors.

                                                                                                      2
	 One implementing partner calculated results incorrectly (page 7). The results were on
   indicators used to measure the effectiveness of TB/HIV activities funded by the President’s
   Emergency Plan for AIDS Relief (PEPFAR)—indicators that differ from those the South
   African health facilities are used to reporting on.

	 Some health-care facilities did not comply with infection control standards (page 9). The
   facilities were too small to segregate patients suspected of having TB or were in need of
   renovations that would allow them to ventilate rooms properly. If clinics expose patients to
   disease, South Africans will stop visiting them and forgo the diagnostic and treatment
   services that USAID supports.

To address these issues, the audit recommends that the mission:

1. 	 Implement a plan with benchmarks and milestones for sustainably raising the TB TSR to
     85 percent in U.S. Government-supported health-care facilities by September 28, 2014
     (page 5).

2. 	 Revise its annual performance plan and report for FY 2011 to disclose trends in the TSR
     and the number of TB cases at sentinel surveillance sites, and implement procedures to
     verify full disclosure in future reports (page 6).

3. 	 Implement a cost-effective method for reasonably estimating the percentage of all registered
     TB patients that were tested for HIV in all facilities directly or indirectly supported by USAID
     (page 6).

4. 	 Conduct and document training for its implementing partners on the correct calculation of
     PEPFAR TB/HIV indicators, and require that the implementing partners provide sufficient
     guidance on data collection for those indicators to the health-care facilities that they support
     (page 8).

Detailed findings appear in the following section, and the scope and methodology appear in
Appendix I. Management comments are in Appendix II, and our evaluation of them is on
page 10.




                                                                                                   3
AUDIT FINDINGS 

Mission Was Not on Track to Achieve
Desired Treatment Success Rate
The TSR, the proportion of patients who complete their entire course of TB treatment, is widely
acknowledged as a good indication of the effectiveness of a country’s TB program.
Consequently, one of the key results expected in URC’s contract was to increase the TSR to
85 percent “at the national or sub-national level.” Mission officials indicated that URC was to
achieve this target by the end of its contract in 2014. For FY 2011, URC set an interim TSR
goal of 80 percent.

Despite this expectation, the audit found that URC was not on track to raise the TSR to
85 percent by 2014. URC did not achieve its FY 2011 target of 80 percent. According to URC’s
2011 annual report, the TSR improved only marginally compared with the previous year, from
approximately 72 to 74 percent. Mission officials stated that URC supports 24 districts whose
average TSR is more than 77 percent; one-third of those districts have rates between 80 and
84 percent.

The audit found that URC was not planning sufficient steps to meet the target. For example,
URC’s initial FY 2012 work plan did not mention TSRs. The subsequent submission set a TSR
target of 85 percent but offered no specifics as to how it would be achieved. Furthermore,
although URC officials said the organization sends teams out to locate patients who have not
completed their treatment, it is unclear to what extent these efforts have actually improved
treatment rates.

Other reasons for not meeting the target included the following:

	 South African policy may discourage completion of TB treatment. South Africa pays
   stipends to individuals who have active TB and discontinues the stipend when the
   individuals are cured. The auditors heard anecdotal evidence that individuals sometimes
   choose not to complete their treatment for fear of losing their stipend.

	 The implementation approach used by the mission and URC—district rotation—undercuts
   their ability to sustain improved treatment rates. URC typically works in the worst-
   performing districts and then moves to other districts when services improve. However, the
   rotation of trained URC and nursing staff to new districts erodes previous gains. According
   to the mission, South African officials are discussing including a training module in the
   nursing curriculum that is expected to help sustain any gains made by USAID and URC.

	 The method for calculating the TSR may also result in lower reported rates. The TSR is
   based only on the districts that URC is assisting when the TSR is calculated. Thus,
   improvements in TSR for districts no longer assisted by URC are not captured in the overall
   reported TSR.

The mission’s annual performance plan and report did not mention the missed target. Although
the report stated that South Africa’s current TSR is 73 percent among new patients, it omitted
that URC, USAID’s primary implementer of TB activities in South Africa, reported only a

                                                                                             4
marginal improvement in TSR between 2010 and 2011. It also omitted URC’s annual goal of
80 percent for FY 2011. Furthermore, the report did not mention the goal of achieving an
85 percent TSR by the end of URC’s contract on September 28, 2014.

Lower-than-desired treatment rates not only diminish the effectiveness of U.S. foreign
assistance, but also have serious public health consequences for South Africans. According to
the U.S. Centers for Disease Control and Prevention, efforts to control TB become
counterproductive when TB patients do not complete their treatment and raise their risk of
contracting multidrug-resistant TB and infecting others. According to URC’s FY 2011 annual
report, the default rate among re-treated TB patients increased from 13.6 percent in FY 2010 to
14.4 percent. This may have contributed to the lack of improvement in death rates among re-
treated TB patients, which actually increased from 11.5 to 11.6 percent between FY 2010 and
FY 2011. Given these circumstances, the audit makes the following recommendation.

      Recommendation 1. We recommend that USAID/Southern Africa implement a plan
      with benchmarks and milestones for sustainably raising the tuberculosis treatment
      success rate to 85 percent in U.S. Government-supported health-care facilities by
      September 28, 2014.

Some Reported Data Did Not Meet
Quality Standards
According to USAID’s Automated Directives System 203.3.5.1, to be useful for managing and
reporting, performance data should meet five quality standards—validity, integrity, precision,
reliability, and timeliness. When data do not meet the standards, missions should document
any known data limitations and plans for dealing with them so that program achievements can
be assessed honestly.        Such disclosure helps ensure transparency in programs and
performance reporting, which is an important tenet of U.S. foreign assistance.

Despite these requirements, the audit found that the performance data the mission reported for
its TB activities needed improvement. The FY 2011 annual performance plan and report did not
disclose all known data limitations, and some data could be invalid and unreliable because they
did not represent all facilities and had not been verified by data entry clerks.

Undisclosed Data Limitations. The report did not fully disclose data limitations on the
following indicator: Percentage of all registered TB patients who are tested for HIV. The report
stated that the mission’s efforts to strengthen TB/HIV integration were effective, as 88 percent of
TB patients registered at TB/HIV sentinel surveillance sites were tested for HIV. Elsewhere the
report noted that 153,088 TB cases were reported by USAID-supported districts in FY 2011.
From these facts, report readers could infer that 134,717 (88 percent of 153,088) registered TB
patients were tested for HIV; in fact, only 57,511 were tested.

According to mission officials, 153,088 was the number of TB patients registered at
approximately 1,200 health-care facilities in 21 districts receiving both direct and indirect U.S.
Government assistance, while the 264 TB/HIV sentinel sites receiving direct assistance5 from
URC registered only 65,354 TB patients.



5
    Direct assistance means that URC staff visit the facility and provide assistance in reporting data.

                                                                                                          5
To make readers aware of this indicator’s limitations, the report should have detailed how the
indicator was calculated. Specifically, the report should have:

	 Clarified that sentinel sites were not the only ones receiving U.S. Government assistance.

	 Specified that sentinel surveillance sites tend to have better capabilities in diagnosing and
   reporting high-quality data and are not representative of all health-care facilities.

	 Made clear that because some facilities receive only indirect U.S. Government assistance,
   their testing rates for TB patients are not solely the results of that assistance.

In fact, the USAID contracting officer’s representative for the URC contract confirmed that the
HIV testing rate of TB patients in indirectly supported facilities during FY 2011 was unknown
because URC did not have access to data in these facilities. According to mission officials,
South African government officials do not easily give partners access to data at facilities they do
not directly support.

According to mission officials, these statements in the annual report were not intended to
mislead readers; rather, they were oversights made during report preparation. Further, officials
said that limited space in the reporting template for the narrative and footnotes sometimes
prevented full disclosure. Nevertheless, mission officials agreed they should have disclosed all
the indicator’s limitations in the annual performance plan and report.

In addition to helping the mission meet statutory requirements in the Government Performance
and Results Modernization Act of 2010, the annual performance plan and report fulfills other
objectives. For example, the report helps identify best practices and lessons learned from field
activities and assists USAID and Department of State officials in responding to inquiries from
Congress and the public. Omitting relevant data limitations diminishes the usefulness of the
report.

Furthermore, HIV testing of TB patients is a widely recognized component of international TB
control and a significant part of the U.S. Government’s TB control strategy, particularly in
countries where the U.S. Government is implementing HIV/AIDS-related assistance. If the
mission does not know whether or to what extent its indirectly supported health-care facilities
are testing TB patients for HIV, it cannot evaluate how well TB and HIV activities are being
integrated. In its FY 2011 report, URC noted rising death rates among re-treated TB patients,
which could be a result of poor TB/HIV integration.

The audit makes the following recommendations.

   Recommendation 2. We recommend that USAID/Southern Africa (1) revise its annual
   performance plan and report for fiscal year 2011 to disclose trends in the treatment
   success rate and the number of tuberculosis cases at sentinel surveillance sites and (2)
   implement procedures to require full disclosure in future reports.

   Recommendation 3. We recommend that USAID/Southern Africa implement a cost-
   effective method for reasonably estimating the percentage of all registered tuberculosis
   patients tested for HIV in all facilities directly or indirectly supported by USAID.




                                                                                                 6
Lack of Data Capturers. URC’s contract with USAID included strengthening directly observed
treatment short course (DOTS). DOTS is a worldwide approach to TB control with five
components, one of which is sustained political and financial commitment. South Africa’s
strategic plan for TB control describes political commitment as, among other things, helping
ensure that sufficient financial and human resources are available. Given the importance of
accurate data in all phases of TB control, having adequate personnel to collect and record data
is a critical element in the DOTS strategy.

Nonetheless, data entry clerks were scarce at health facilities. Nearly one-third (6 of 19) of the
health facilities visited by the audit team lacked a dedicated data entry clerk. Other facilities
also reported sharing a clerk with two or more facilities.

According to mission officials, provincial governments could not pay data entry personnel. A
South African health official said the national government trained more than 1,100 clerks in
2007 and 2008 to alleviate the problem. According to this official, although the national
government placed the trained clerks in facilities and paid them for 1 year, the provincial
governments did not take over their salaries as agreed because of a lack of funding.

Additionally, in 2011 URC sent data entry clerks to North West and KwaZulu-Natal Provinces.
URC’s understanding was that these employees eventually would be put on the public payroll.
However, they were not, again because of budgetary constraints. URC reported that
sometimes only 50 percent of data was recorded from some districts because of the lack of data
entry clerks. In its report for the quarter ended June 30, 2011, URC stated that in most districts
data entry clerks were absent because their contracts with the national government expired in
May.

Officials at facilities visited by the audit team said that the lack of data entry clerks created data
backlogs. Several officials acknowledged there were usually differences between the TB data
in the national database and the facilities’ own records, resulting in an inaccurate reflection of
the facility’s performance. These officials said that the differences could have adversely
affected reported cure rates, default rates, and TSRs, possibly rendering these measures invalid
or unreliable.

Data entry clerks are critical to the TB program because they collate and validate data before
entering them into electronic TB registers. Without clerks, TB data may not be entered into the
national database, resulting in incomplete reporting and ultimately weakening the country’s
ability to control TB. Without accurate, reliable, and timely information, decision makers cannot
determine resources or interventions needed to combat the disease. Mission officials are aware
of the situation and, in their talks with South African officials, continue to emphasize the
importance of data entry clerks. Because the mission is doing what it can to address this issue,
the audit makes no recommendation on it.

One Implementing Partner Incorrectly
Calculated Results

USAID/Southern Africa uses a standardized set of TB/HIV indicators for PEPFAR reporting.
These TB/HIV indicators are defined in PEPFAR’s August 2009 Next Generation Indicators
Reference Guide. This guide contains detailed information on how to calculate results on
PEPFAR indicators, such as definitions of numerators and denominators, methods of
measurement, and the indicators’ purpose and interpretation.

                                                                                                    7
For one indicator, Percent of HIV-positive patients who were screened for TB in HIV care or
treatment settings, the PEPFAR guide defines the numerator as the number of HIV-positive
patients screened for TB at their last visit during the reporting period. It defines the denominator
as the number of HIV-positive patients receiving a minimum of one clinical service, which
includes TB screening. Given these definitions, the reported result should not exceed 100
percent.

Despite this guidance, BroadReach Healthcare reported a first quarter FY 2012 result of
139 percent. This error occurred because facilities supported by BroadReach counted in the
numerator all TB screenings for HIV-positive persons during the reporting period, rather than
just screenings at the last visit for HIV-positive persons in care and treatment as specified in the
guide. Moreover, BroadReach defined the denominator as the number of individuals testing
positive for HIV, also contrary to the PEPFAR guide. With values exceeding 100 percent, such
data are not useful for program managers.

Another indicator—Percent of HIV-positive patients in HIV care or treatment who started TB
treatment—helps track the share of HIV-positive patients who are diagnosed with active TB and
receive treatment. According to the PEPFAR guide, the numerator is the number of HIV-
positive patients (adults and children) started on TB treatment, while the denominator is the
number of HIV-positive patients receiving a minimum of one clinical service.

For this indicator, BroadReach Healthcare reported a result of 102 percent for FY 2011.
Although the numerator was based on the number of people with both HIV and TB who started
on TB treatment, the denominator, contrary to the PEPFAR guide, was the number of HIV-
positive individuals diagnosed with active TB.

According to BroadReach Healthcare officials, health-care facilities made mistakes in data
collection and reporting. Mission officials also stated there are many challenges in reporting on
these indicators. For example, the mission uses only the two TB/HIV indicators mentioned
above, while the South African Government uses seven. These seven are quite different from
the mission’s indicators, further complicating tracking and reporting.

Because facilities did not follow the PEPFAR guide in calculating results, the indicators cannot
be used as intended to assess program effectiveness and identify needed improvements. For
example, the two TB/HIV indicators reported by USAID/Southern Africa on TB screening and TB
treatment among HIV-positive patients are designed to be used in tandem. According to the
PEPFAR guide, if TB screening increases, TB treatment should also increase. Conversely, a
decrease in TB treatment may indicate poor integration of TB and HIV services, such as a
failure to screen HIV patients for TB and initiate treatment. However, if the two indicators are
not computed in accordance with the PEPFAR guide, they cannot be used to assess
performance or pinpoint weaknesses. Given the importance of linking TB and HIV services in
improving health outcomes in South Africa, the ability to find and correct weaknesses is vital.
Accordingly, this audit makes the following recommendation.

   Recommendation 4. We recommend that USAID/Southern Africa conduct and
   document training for its implementing partners on the correct calculation of the
   President’s Emergency Plan for AIDS Relief tuberculosis and HIV indicators and require
   that the implementing partners provide sufficient guidance on data collection for those
   indicators to the health-care facilities that they support.



                                                                                                  8
Some Facilities Did Not Comply With
Infection Control Standards

Infection control and management are critical in preventing the spread of TB. The Lantos-Hyde
United States Government Tuberculosis Strategy lists implementation of international TB
standards for infection control in target countries as a key goal.

South Africa’s National TB Infection Control Guidelines, issued in June 2007, list interventions
that health facilities can use to prevent spreading TB. Some interventions include placing those
with suspected TB in separate waiting areas and having open, cross-ventilating windows.

In keeping with the U.S. strategy and South African guidance, the mission’s implementing
partners were responsible for conducting baseline TB infection control assessments and sharing
the results with the National Department of Health. These assessments were to review
components of infection control such as supporting activities, administrative controls, and
environmental controls. Supporting activities include basic elements such as having an
infection control plan and raising community awareness of infection control. Administrative
controls refer to strategies, such as educating patients on cough hygiene, to reduce the spread
of germs that cause TB. Environmental controls include adequate ventilation in health facilities,
use of ultraviolet germ-killing radiation in high-risk service areas, and appropriate patient flow.

Although URC, BroadReach Healthcare, and HPCA conducted risk assessments, infection
control audits, and developed infection control plans, nearly half of the health-care facilities (10
of 22) visited by the audit team did not comply fully with infection control guidelines, particularly
for segregating TB patients.

According to health-care personnel, these facilities did not comply with the guidelines because
they were too small to segregate TB patients and needed major structural renovations.
Renovations are the responsibility of the South African Government, not USAID. Although
renovation work is outside the scope of URC’s contract with USAID, URC officials noted in the
assessments they gave South African officials that the health centers needed major structural
improvements and renovations to comply with TB infection control guidelines.

If facilities do not comply with infection control guidelines, the mission’s goals for its TB activities
may not be met. South Africans could lose confidence in publicly managed health facilities and
avoid seeking treatment if they are aware that they may be exposed to TB there. Further, the
U.S. Government has spent significant resources to assess risks at health-care facilities and
develop action plans. Such expenditures are of little value if the South African Government is
unable or unwilling to implement recommendations resulting from those assessments.

Mission officials said they were already aware that some facilities did not comply with guidelines
because the facilities were too small or needed renovations. Instead, USAID was focusing on
increasing knowledge of control measures such as hand washing that could be implemented
despite the facilities’ structural limitations. South African officials, too, were aware that structural
renovations were needed at many health facilities and said they planned to address this issue.
Because USAID continues to engage with South African officials regarding needed structural
improvements at some health facilities, the audit makes no recommendation on this matter.




                                                                                                      9
EVALUATION OF MANAGEMENT
COMMENTS
In its comments on the draft report, USAID/Southern African agreed with all four
recommendations. We agreed with the management decisions made by the mission.

Recommendation 1. USAID/Southern Africa agreed with the recommendation, but pointed out
that the U.S. Government relies on data from South Africa’s National Department of Health
(NDOH), which may be underreported. A memorandum of understanding between the NDOH
and the U.S. Government is being developed to give the partners access to NDOH databases
and a greater role in data collection and reporting. The mission expects its partners to have
developed benchmarks and milestones that are aligned with South African Government
indicators by January 31, 2013. We agree with the management decision for Recommendation
1.

Recommendation 2. USAID/Southern Africa agreed with the concept of the recommendation
but highlighted that the omission was not intentional and amendments to the annual report are
not possible after a certain period. However, by December 15, 2012, the mission plans to
submit a letter with a footnote to the program office to document the trends in the treatment
success rate and the number of TB cases at sentinel surveillance sites. We agree with the
management decision for Recommendation 2.

Recommendation 3. USAID/Southern Africa agreed to implement this recommendation only for
the health facilities that the mission supports and not all U.S. Government-supported facilities as
originally recommended. We agree with this change and revised the recommendation
accordingly. By December 31, 2012, the mission plans to use data from the NDOH database
to estimate the percent of registered TB patients tested for HIV. We agree with the mission’s
plans since obtaining this data from indirectly supported facilities may not be cost-effective, and
thus agree with the management decision for Recommendation 3.

Recommendation 4. USAID/Southern Africa agreed with the recommendation and is in the
process of aligning its indicators with those of the South African Government. The mission
plans to complete this alignment, provide guidance to all its partners, and meet with partners
about these indicators by April 30, 2013. We agree with the management decision for
Recommendation 4.




                                                                                                10
                                                                                          Appendix I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/Pretoria conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions in accordance with our audit objective. We believe that the evidence
obtained provides that reasonable basis.

The objective of the audit was to determine whether USAID/Southern Africa’s TB activities were
strengthening systems and capacity in several areas critical to a fully functioning TB control
program, including infection control at service delivery points. We conducted audit fieldwork
from February 10 to May 3, 2012, at USAID/Southern Africa and the implementing partners’
offices in Pretoria and Cape Town. We conducted site visits to 22 health facilities in Gauteng,
KwaZulu-Natal, Free State, Eastern Cape, and Western Cape Provinces. Specifically, we visited
19 facilities directly supported by URC in Gauteng, KwaZulu-Natal, Free State, and Eastern Cape
Provinces, 2 facilities directly supported by BroadReach Healthcare in KwaZulu-Natal, and 1
facility supported by HPCA in Western Cape.

This audit focused on TB activities implemented in FY 2011 and FY 2012 through USAID’s
Child Survival and Global Health (CSH) and PEPFAR funds. In FY 2011, the mission received
approximately $25.8 million ($15.6 million from PEPFAR and $10.2 million from USAID’s CSH)
to implement TB activities. Overall, the mission funds 13 partners to implement TB activities.
The audit team selected three implementing partners for detailed review that were significant
contributors to both TB activities and TB/HIV integration. The audit selected URC because it is
the primary partner for TB activities, reports on all three TB indicators and both PEPFAR TB/HIV
indicators, and reports on the TSR. The audit selected HPCA because it reports on the first
PEPFAR indicator (Indicator 5 on page 13) and BroadReach Healthcare because it reports on
the two TB/HIV PEPFAR indicators. As shown in the table below, these partners received
approximately $15.4 million or 60 percent of FY 2011 funding. The audit covered approximately
45 percent of activities funded by PEPFAR and 88 percent of activities funded by CSH
(excluding WHO) in FY 2011.6

                            Amount of FY 2011 Funding Received 

                         by Selected Implementing Partners (Audited) 

                                            ($) 


                                                                                  Total FY 2011
                                                                   PEPFAR
              Implementing Partner              CSH Funding                         Funding
                                                                   Funding
                                                                                    Received
     URC                                          7,100,000        5,375,641       12,475,641
     HPCA                                         1,350,000          103,596        1,453,596
     BroadReach Healthcare                                0        1,456,931        1,456,931
     Total                                        8,450,000        6,936,168       15,386,168


6
 The mission also provided funding to WHO, but since we do not have audit rights to that organization,
we did not include them in our sample.

                                                                                                   11
                                                                                       Appendix I



In planning and performing the audit, we assessed USAID/Southern Africa’s internal controls.
Specifically, we reviewed and inquired about the mission’s reporting required by the Federal
Managers’ Financial Integrity Act of 1982, which provided detail on the mission’s administrative
management, financial management, programming, and general control environments. We also
obtained an understanding of and evaluated the mission’s monitoring and evaluation
procedures and reporting processes. This included obtaining and reviewing documentation to
support mission strategic planning, the designation of agreement and contracting officer
representatives, the completion of data quality assessments, the performance of site visits, the
documentation of meetings with implementing partners, the submission of periodic performance
reports, and the scheduling and completion of program evaluations.

Methodology
To answer the objective, Regional Inspector General/Pretoria interviewed officials from
USAID/Southern Africa, the South African Government, and implementing partners to gain an
understanding of the mission’s TB activities as well as to identify the key performance indicators
used to measure the contribution of those activities to meeting the main goals of the program.

We also reviewed the implementing partners’ agreements, work plans, and progress reports. In
addition, we reviewed applicable laws, regulations, and USAID and South African National
Department of Health policies and procedures pertaining to USAID/Southern Africa’s TB
activities, including USAID Automated Directives System Chapters 200 through 203, the Lantos-
Hyde United States Government Tuberculosis Strategy, and the South African National
Department of Health’s National Tuberculosis Management Guidelines 2009 and National TB
Infection Control Guidelines, issued in June 2007.

During site visits, we interviewed facility managers, doctors, nurses, data entry personnel, and
health-care workers. We also met with provincial and district officials from the South African
National Department of Health.

We tested the validity and accuracy of the reported results for five performance indicators, three
focusing on TB activities and two focusing on the TB/HIV integration:

TB Indicators

1. 	Number of improvements to laws, policies, regulations or guidelines related to improved
    access and use of health services drafted with U.S. Government support.

2. 	 Number of people trained in DOTS with U.S. Government funding.

3. 	 Percentage of all registered TB patients who are tested for HIV through U.S. Government-
     supported programs.




                                                                                               12
                                                                                       Appendix I


TB/HIV Indicators

4. 	 Percent of HIV-positive patients who were screened for TB in HIV care or treatment settings.

5. 	Percent of HIV-positive patients in HIV care or treatment (preantiretroviral therapy or
    antiretroviral therapy) who started on TB treatment.

For Indicator 3, we tested the denominator in the percentage by examining a statistical sample
of 83 of the 65,354 TB patients registered at 264 URC-supported TB/HIV health-care sentinel
surveillance sites for FY 2011. To aid us in our testing and in reaching our conclusions, we
used statistical sampling. Our sample included a mix of facilities from both rural and urban
areas in four provinces (Gauteng, KwaZulu-Natal, Free State, and Eastern Cape) and serving
patients of various socioeconomic strata. The number of registered TB patients selected for
testing in each province was proportional to the total number of registered TB patients in
selected districts in those four provinces. The results of this sample are representative of the
population from which the sample was drawn and thus can be projected to the population.

The test had a 95 percent confidence interval and 4 percent precision. Using the same sample,
we also tested whether the TB patients were tested for HIV, but we made no projections for this
portion of the test.

Our tests confirmed the reported results for the three indicators focusing on TB activities.
However, we were unable to determine whether the two TB/HIV indicators were fairly stated
because other implementing partners report on these indicators; those partners were outside
the scope of this audit; and other factors affected the quality of the data, as described in the
finding on page 5.

The lack of data entry personnel described on page 7 did not affect our statistical test regarding
the 65,354 registered TB patients described above because we tested for overstatement, not
understatement. The lack of data entry personnel leads to understating, rather than overstating
results.

To determine whether USAID/Southern Africa had achieved its main short-term goal of helping
strengthen South African systems and capacity in several areas critical to a fully functioning TB
control program, including infection control at service delivery levels, we examined selected
outputs to see whether they had met their annual targets. We then determined whether those
outputs that met their targets were supported by sufficient, appropriate evidence. Outputs
selected included the number of registered TB patients tested for HIV and number of
improvements to laws, policies, regulations, and guidelines related to improved access to health
services.

In determining whether the mission had achieved, or was on track to achieving, its long-term
goal of raising the TSR to 85 percent by 2014, we determined where the rate stood in relation to
the annual target of 80 percent as of September 30, 2011, as reported by the implementing
partner, URC.




                                                                                               13
                                                                                      Appendix II



MANAGEMENT COMMENTS 


                                                                            September 10, 2012

Memorandum

From: Jeff Borns, Mission Director /s/

To: Regional Inspector General/Pretoria: Robert Mason

Subject: Audit of USAID/Southern Africa’s Tuberculosis Activities (Report No. 4-674-12-XXX-P)


This memo transmits USAID/Southern Africa’s written comments on the recommendations
made under the subject audit.

   Recommendation 1. We recommend that USAID/Southern Africa develop and
   implement a plan, with benchmarks and milestones, for sustainably raising the
   tuberculosis treatment success rate to 85 percent in U.S. Government-supported
   health care facilities by September 28, 2014.

   We accept this recommendation; however it should be made clear that the USG relies
   on the NDOH’s ETR.net system for data. Unfortunately there are indications that there
   is underreporting between the various reporting levels – hence reporting under the
   targets. To improve the situation, an MOU is currently in process with the NDOH and
   the USG to allow partners to have access to the ETR.net and thus be able to assist with
   data capturing, aggregation, verification and reporting. In addition, the plan for partners
   to develop SAG aligned benchmarks and milestones will be developed by January 31,
   2013.

   Recommendation 2. We recommend that USAID/Southern Africa revise its annual
   performance plan and report for the fiscal year ended September 30, 2011, to
   disclose trends in the treatment success rate and the number of tuberculosis
   cases at sentinel surveillance sites; and develop and implement procedures to
   help ensure full disclosure in future reports.

   We understand why this recommendation was made, however, we are concerned with
   the way this is phrased as there was no intention to mislead the reader, and the
   omission was not deliberate. The reporting database has a character limit for providing
   additional information. In addition, after a set period the report is closed and no further
   amendments are allowed. In response to this recommendation, a letter with a footnote
   will be sent to PPDO for the APPR files to show trends in the treatment success rates
   and the number of TB cases at sentinel surveillance sites; this will be done December
   15, 2012.


                                                                                                 14
                                                                                         Appendix II


   Recommendation 3. We recommend that USAID/Southern Africa develop and
   implement a cost-effective means for reasonably estimating the percentage of all
   registered tuberculosis patients that were tested for HIV in all U.S. Government
   directly and indirectly supported facilities.

   We accept this recommendation, but only for USAID/Southern Africa supported facilities
   and not for all U.S. Government supported facilities. USAID/Southern Africa will use data
   from ETR.net to estimate the percentage of registered TB patients tested for HIV.
   Please note previous comments on the quality of data from ETR.net and all supported
   partners will submit data on direct and indirect services for HIV testing. In an effort to be
   cost effective, USAID /Southern Africa will not establish a parallel system to capture this
   information.

   Recommendation 4. We recommend that USAID/Southern Africa conduct training
   for its implementing partners on the correct calculation of the President’s
   Emergency Plan for AIDS Relief TB/HIV indicators and require that the
   implementing partners provide sufficient guidance on data collection for those
   indicators to the health care facilities that they support.

   We accept this recommendation. Although this problem is unique to one partner, we will
   use this example to share with all partners. Furthermore, we are in the process of
   aligning the indicators with the SAG indicators, and this particular indicator is exactly like
   the SAG indicator. Once the guidance is out, it will be sent out to all partners and a
   meeting will be held.

Finally, I would like to thank you and your staff for the collaborative way in which this audit
was conducted, and the useful nature of the recommendations.




                                                                                                    15
U.S. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

           http://oig.usaid.gov/
